IN THE

�upreme <ltourt of tbe Wniteb �tate1,
.No.
CUSTOMEDIA TECHNOLOGIES, LLC,

v.

Petitioner,

DISH NETWORK CORPORATION;
DISH NETWORK, LLC,

Respondents.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT

CERTIFICATE OF SERVICE
I hereby certify that on July 31, 2020, I caused three copies of the petition for
a writ of certiorari to be served on the counsel of record as follows:
By e-mail and first class mail to:
Eliot D. Williams

BAKER BOTTS L.L.P.

1001 Page Mill Road
Building One, Suite 200
Palo Alto, CA 94304
(650) 739-7500
eliot.williams@bakerbotts.com
Counsel for Respondents
Dish Network Corporation,
Dish Netw ork, LLC

Noel Francisco, Solicitor General
U.S. DEPARTMENT OF JUSTICE
950 Pennsylvania Ave., N.W.
Washington, D.C. 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for United States of America

I hereby certify that all parties required to be served have been served. I declare
under penalty of perjury that the foregoing is true and correct.

